                         UNCLASSIFIED

      United States Department of State
    and the Broadcasting Board of Governors
              Office of Inspector General



                   Office of Audits


      Audit of
Emergency Preparedness

        at the

Washington Metropolitan

     Facilities of the

      Broadcasting

    Board of Governors


      Report Number AUD/SI-06-24, May 2006




                             IMPORTANT NOTICE

This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy
directly from the Office of Inspector General. No secondary distribution may be
made, in whole or in part, outside the Department of State or the Broadcasting
Board of Governors, by them or by other agencies or organizations, without prior
authorization by the Inspector General. Public availability of the document will
be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.
Improper disclosure of this report may result in criminal, civil, or administrative
penalties.




                          UNCLASSIFIED

                                              UNCLASSIFIED




                              TABLE OF CONTENTS




SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

OBJECTIVES, SCOPE, AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

AUDIT RESULTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

           Occupant Emergency Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

           Occupant Emergency Plan . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

APPENDIX A: METHODOLOGY AND RESULTS OF OIG’S EMERGENCY

                      Preparedness Questionnaire . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

APPENDIX B: AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27





                                          UNCLASSIFIED

                                        UNCLASSIFIED





                                        SUMMARY


    After the September 11, 2001, terrorist attacks, the federal government refo-
cused its domestic security needs and responsiveness requirements. Clear lines of
command and control within an organization are essential to minimize occupant
and responder casualties. Effective emergency planning can substantially reduce the
loss of life, risk of personal injury, or property damage.

     Thus, in accordance with the FY 2005 Audit Plan, the Office of Inspector
General (OIG) conducted an audit of the emergency preparedness of the Broad-
casting Board of Governors (BBG). The primary objectives were to determine
whether BBG had (1) implemented an Occupant Emergency Program1 in accor-
dance with regulations, and (2) adequately developed and distributed occupant
emergency plans.2 The audit covered BBG facilities (Wilbur J. Cohen and Mary K.
Switzer Buildings) located in Washington, DC, and occupant emergency plans for
2005.

    BBG's International Broadcasting Bureau (IBB) said it had implemented an
Occupant Emergency Program and had included program guidance in its Manual of
Operations and Administration (MOA). However, IBB had not revised the guid-
ance since 1999. As of December 2005, BBG also had not complied with Home-
land Security Presidential Directive/ HSPD-5, which required agencies to submit a
plan to participate in the National Incident Management System by August 2003.
IBB officials said they were not aware of this requirement, but during the audit,
they initiated an effort to comply.

    The IBB occupant emergency plan dated 2005 for the Cohen Building did not
address individuals with disabilities. IBB also had not developed and implemented
an emergency plan for its occupants of the Switzer Building. Furthermore, BBG
employees lacked specific knowledge regarding their roles and responsibilities
during an emergency. About 87 percent of BBG employees responding to an OIG




1
 An Occupant Emergency Program establishes procedures for safeguarding lives and property in and

around the facility during emergencies.

2
 An occupant emergency plan is a facility-specific set of procedures to protect life and property under

defined emergency conditions.



OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006   1 .

                                        UNCLASSIFIED
                                             UNCLASSIFIED




            questionnaire said that they were not briefed on BBG's emergency plan within their
            first month of employment. (See Appendix A.) In fact, 52 percent of the employ-
            ees responded that they were not aware of or had not read the emergency plan for
            their primary workplace. An IBB official said the current plan has been dissemi-
            nated to employees through e-mail notices and a posting on the Intranet.

                General Services Administration (GSA) guidance provides that an occupant
            emergency plan should be tested periodically to maintain training proficiency and
            identify adjustments to the plan. Although BBG had conducted periodic fire drills,
            requiring building evacuation, it had not conducted shelter-in-place drills.3 As a
            result, 52 percent of BBG employees responded that they would not know what to
            do if management invoked a shelter-in-place, and 51 percent did not know the
            designated location for a shelter-in-place.

                 BBG also needs to improve communications with GSA to ensure that critical
            emergency and safety mechanisms are installed and operational within the BBG
            facilities. Both buildings either lacked critical equipment such as fire sprinklers,
            smoke detectors, and alarms, or if installed, such equipment was in several in-
            stances inoperable. In fact, the public address system was inoperable in one of the
            buildings. GSA specifications indicated that renovations were planned to install
            emergency and safety mechanisms in the Cohen and Switzer Buildings.

                The September 11, 2001, and the July 7, 2005, London attacks demonstrate the
            need for emergency preparedness. Integral to preparedness are such components as
            effective communication networks and adequate emergency lighting, signage, and
            plans.

                Thus, OIG is recommending that IBB update its MOA, adopt and implement
            the National Incident Management System, comply with pertinent regulations, and
            ensure that critical safety mechanisms are installed and operational within its
            Washington facilities. On December 19, 2005, OIG conducted an exit conference
            with IBB officials, and discussed its findings. On February 28, 2006, OIG submit-
            ted the draft report to BBG for comments.




            Shelter-in-place means selecting an interior room or rooms within your facility, or ones with no or few
            3

            windows, and taking refuge there.



2 .   OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006


                                             UNCLASSIFIED
                                       UNCLASSIFIED



     BBG concurred, in principle, with the recommendations in the report; how-
ever, the agency did not agree with a part of recommendation four, which referred
to phone trees, and the wording used in recommendation five. OIG considered the
comments received on the draft report from BBG when preparing the final report
and incorporated them and made changes as appropriate. The written comments
are included in their entirety as Appendix B.




OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006   3 .

                                       UNCLASSIFIED
                                             UNCLASSIFIED





4 .   OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006


                                             UNCLASSIFIED
                                       UNCLASSIFIED





                                   BACKGROUND


     The United States International Broadcasting Act of 19944 established IBB
and created BBG with oversight authority over all nonmilitary U.S. government
international broadcasting. As mandated for all federal departments and agencies,
BBG should provide procedures, resources, and support as appropriate and consis-
tent with its responsibilities for protecting lives and ensuring the continuation of its
operations.

   BBG is located primarily in the Wilbur J. Cohen Building, shown in Figure 1,
and has about 40 employees in the Mary E. Switzer Building, shown in Figure 2.
Both buildings are in Washington, DC.



Figure 1: Wilbur J. Cohen Bldg.                              Figure 2: Mary E. Switzer Bldg.




Source: BBG.	                                           Source: Elliott, LeBoeuf & Associates.
                                                       (Permission granted by Roger LeBoeuf)

     According to the MOA, IBB's Office of Administration is responsible for (1)
developing, implementing, and maintaining occupant emergency plans; (2) assisting
and advising the designated official in establishing an Occupant Emergency Orga-
nization and providing guidance in documenting the occupant emergency plans; (3)
maintaining liaison with the Federal Protective Service and GSA building managers
who advise and assist offices in administering the Occupant Emergency Program;



Pub. L. No. 103-236.
4




OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006   5 .

                                       UNCLASSIFIED
                                             UNCLASSIFIED




            (4) maintaining a copy of the occupant emergency plan established at each location
            where BBG is the primary occupant agency or where BBG is included in the
            occupant emergency plan of another primary occupant agency; (5) conducting an
            annual review of occupant emergency plans and organizations to ensure that they
            are current and adequate; (6) advising heads of organizational elements in the
            Washington area about their responsibility for organizing or participating in the
            Occupant Emergency Program at buildings other than Cohen and Switzer; and (7)
            providing training and guidance on facility or occupant emergencies to the heads of
            various establishments.

                The MOA further states that: "The Occupant Emergency Program prescribes
            the scope and method for immediate, positive, and orderly action to safeguard life
            and property during facility/occupant emergencies." This program is fully imple-
            mented through an occupant emergency plan and the establishment of an Occu-
            pant Emergency Organization at each location where BBG is the primary tenant.
            BBG will participate in a similar organization upon the request of another agency
            having responsibility as primary tenant.




6 .   OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006


                                             UNCLASSIFIED
                                       UNCLASSIFIED





                   OBJECTIVES, SCOPE, AND
                       METHODOLOGY


    The primary audit objectives were to determine whether BBG had (1) imple-
mented an Occupant Emergency Program in accordance with federal regulations,
and (2) developed and distributed occupant emergency plans to all personnel. The
audit scope covered BBG facilities (Cohen and Switzer Buildings) in Washington,
DC, and occupant emergency plans for 2005. The scope did not include BBG's
alternate site in Maryland or its Washington-based grantees.

   To determine whether BBG had implemented an Occupant Emergency Pro-
gram, OIG interviewed officials from the Department of Homeland Security
(DHS), Federal Protective Service, GSA, and IBB officials. OIG also reviewed
other audit and inspection reports relating to emergency preparedness and obtained
background information on BBG's emergency preparedness.

     To determine whether BBG had adequately developed and distributed occu-
pant emergency plans, OIG analyzed the plans for 2005 and 2001; conducted site
visits at BBG Washington facilities; held discussions and interviews with key
personnel; observed emergency fire drills on October 13 and October 27, 2005, in
the Switzer and Cohen Buildings, respectively; reviewed after-action reports from
those emergency drills; and obtained and analyzed relevant budgetary documents
and other related reports.

    Additionally, OIG collected information, through a questionnaire, from BBG
employees regarding information they have received about what to do in the event
of an emergency. OIG received 324 responses from the 1,649 occupants of the
two buildings housing BBG staff, for an overall response rate of 20 percent, with
94 percent of the respondents' primary workplace being the Cohen Building. (See
Table 1.) For specific questionnaire responses, see Appendix A.
             Table 1: Sample Size and Response Rate by Stratum
                                                                                      Response
          Stratum                                    Universe         Responses         Rate
          Occupants whose primary                        1,605               306        19%
          workplace is the Cohen Building
          Occupants whose primary                              44               18       41%
          workplace is the Switzer Building
          Total                                            1,649               324
          Source: OIG questionnaire and responses (Sept. 13-Oct. 19, 2005).



OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006   7 .

                                       UNCLASSIFIED
                                             UNCLASSIFIED



               The criteria used to determine compliance included Titles 29 and 41 of the
            Code of Federal Regulations (CFR); GSA Occupant Emergency Program Guide;
            Department of Homeland Security Directives, and IBB's MOA, Part IV, Section
            470.

                The audit was performed in accordance with government auditing standards
            and included such tests and auditing procedures as necessary under the circum-
            stances. OIG's Office of Audits, Security and Intelligence Division, performed this
            audit from August to November 2005. On December 19, 2005, OIG conducted an
            exit conference with IBB officials, and their comments are included in the report as
            applicable.




8 .   OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006


                                             UNCLASSIFIED
                                       UNCLASSIFIED





                                AUDIT RESULTS


   Although BBG had implemented an Occupant Emergency Program, the guid-
ance was outdated and did not fully comply with federal regulations. BBG's occu-
pant emergency plan also did not comply with federal regulations.

    The September 11, 2001, U.S. attacks and the July 7, 2005, London attacks
demonstrate the need for emergency preparedness. Integral to preparedness are
such components as effective communication networks and adequate emergency
lighting, signage, and plans.



OCCUPANT EMERGENCY PROGRAM
    An Occupant Emergency Program establishes procedures for safeguarding lives
and property in and around the facility during emergencies. OIG found that BBG
had an Occupant Emergency Program. However, BBG's program, a component
of IBB's MOA, was last revised in July 1999, despite the terrorist attacks of
September 11, 2001. BBG's program guidance did not reflect any of the federal
government post-9/11 changes on emergency preparedness.

    According to the MOA, IBB's Office of Administration, Management Analysis
Division was responsible for developing and updating the emergency preparedness
program. OIG determined that BBG's Occupant Emergency Program guidance, as
addressed in the MOA, was incomplete and did not include pertinent information.
For example, the MOA did not address the National Incident Management System
(NIMS). NIMS is required per Homeland Security Presidential Directive/HSPD-
5.5IBB officials acknowledged to OIG that they knew the MOA was outdated and
have hired a contractor to update it in sections. IBB has not yet prioritized the
MOA sections, but expects completion within two years.




Subject: Management of Domestic Incidents, Feb. 28, 2003.
5




OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006   9 .

                                       UNCLASSIFIED
                                              UNCLASSIFIED




                 HSPD-5 requires the heads of federal departments and agencies to adopt NIMS
             and to support and assist the DHS Secretary in the development and maintenance
             of NIMS. All federal departments and agencies are to use NIMS in their domestic
             incident management and emergency prevention, preparedness, response, recovery,
             and mitigation activities. The heads of federal departments and agencies are to
             participate in the National Response Plan (NRP), assist and support the Secretary
             in the development and maintenance of NRP, and participate in and use domestic
             incident reporting systems and protocols established by the DHS Secretary.

                  The head of each federal department and agency was to submit its plan by
             August 1, 2003, for adopting NIMS to the DHS Secretary and the Assistant to the
             President for Homeland Security. The latter was to advise the President on
             whether such plans effectively implement NIMS. As of December 2005, BBG had
             not submitted a plan. A DHS official responsible for the NRP and HSPD-5 com-
             pliance confirmed that BBG had not submitted the required plan. This occurred
             primarily because IBB was unaware of the requirements. During the audit, OIG
             provided the related guidance to IBB officials. In December 2005, IBB asked OIG
             for an agency it could contact that was comparable in size to BBG and had success-
             fully implemented NIMS.

             Conclusions

                 The terrorist attacks highlight the critical need for an adequate Occupant
             Emergency Program. Although IBB had program guidance, last updated in 1999, it
             needs to take further actions to improve emergency preparedness and to comply
             with federal requirements. Thus, OIG is making the following recommendation.


                 Recommendation 1: OIG recommends that the Broadcasting Board of
                 Governors, International Broadcasting Bureau, Office of Administration
                 revise the Manual of Operations and Administration, Part IV, Section 470 and
                 specifically include the requirements of Homeland Security Presidential
                 Directive/HSPD-5, including the submission of a plan to adopt and imple-
                 ment the National Incident Management System and participate in the
                 National Response Plan.


                In its response to the draft report, BBG concurred with the recommendation to
             update the Manual of Operations and Administration (MOA), Part IV, Section 470.




10 .   OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006


                                              UNCLASSIFIED
                                       UNCLASSIFIED




OCCUPANT EMERGENCY PLAN
    An occupant emergency plan is a set of procedures to protect life and property,
in federally occupied space under defined emergency conditions. The occupant
emergency plan for the Cohen Building covers and provides for major types of
emergencies and subsequent actions, such as building evacuation or shelter-in-
place.

    IBB's Office of Administration is responsible for developing, implementing,
and maintaining a current occupant emergency plan for all domestic BBG facilities.
IBB officials said they had disseminated the current plan to employees through e-
mail notices and Intranet postings, and had handed out copies to each occupant of
the Cohen Building.

    However as of October 2005, IBB had not developed an emergency plan for
the Switzer Building. During the audit, IBB provided OIG with a draft copy of an
emergency plan for the Switzer Building.

    OIG's analysis of IBB's current 2005 occupant emergency plan, or emergency
action plan as it is referred to by BBG, found that it lacked critical elements pre-
scribed by federal regulations and other federal guidelines on occupancy emergency
requirements. For example, the plan did not identify the members of the occupant
emergency team or include provisions for individuals with disabilities as required by
41 CFR and GSA guidance. IBB officials responded that in order to streamline the
document, which was over 20 pages, to make it more reader-friendly, not all the
specific regulations and other federal guidelines pertaining to occupancy emergency
requirements were included.

Review of Emergency Plan With Employees

     According to 29 CFR §1910.38, under the occupational safety and health
standards, an employer must review the emergency action plan with each employee
covered by the plan when it is developed or when the employee is assigned initially
to a facility. However, the majority of employees responding to OIG's question-
naire generally lacked awareness of emergency preparedness. Specifically, 53
percent indicated that they were not familiar with BBG's Occupant Emergency
Program, and 52 percent were not aware of the emergency action plan for their
primary workplace. The remaining 48 percent that did profess some knowledge of
the plan and received a briefing on it within the first month of employment gener-
ally viewed the guidance positively. Specifically, 71 percent rated it as more than



OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006   11 .

                                       UNCLASSIFIED
                                                 UNCLASSIFIED



             adequate or generally adequate overall. The assessments for specific types of
             emergencies ranged from 50 percent for biological and chemical incidents to a high
             of 87 percent for bomb threat and suspicious package, as indicated in Table 2.

               Table 2: How Respondents Rated the Guidance Provided By the Emergency Action Plan
                                                                      Percentage of Respondents

               Type of Emergency                                        More than        Of marginal       Inadequate;
                                                                        adequate;        or borderline   very inadequate
                                                                        generally          adequacy
                                                                        adequate
               1. Medical emergency                                        81                  6                13
               2. Rescue (mechanical or other entrapment)                  60                 20                20
               3. Fire                                                     81                  6                13
               4. Bomb threat                                              87                  7                 7
               5. Bomb explosion                                           64                 29                 7
               6. Suspicious package                                       87                  7                 7
               7. Hazardous substance (spill, leak)                        64                 29                 7
               8. Chemical incident                                        50                 29                21
               9. Biological incident                                      50                 29                21
               10. Radiological incident                                   54                 31                15
               11. Natural disaster (i.e., hurricane, tornado,             80                 13                7
                flood, earthquake)
               12. Terrorist attack                                         73                13                13
               13. Civil disorder (i.e., hostage takeover                   64                29                7
                or physical threat)
               14. Armed attack                                             67                 8                25
               15. Workplace violence                                       69                8                 23
               Overall                                                      69                17                14
               Source: OIG questionnaire (Sept. 13-Oct. 19, 2005).




             Emergency Drills and Equipment

                 According to 29 CFR §1910.38, under the occupational safety and health
             standards, an emergency action plan should contain, at a minimum, procedures for
             reporting a fire or other emergency and procedures to account for all employees
             after evacuation. Although IBB has undertaken several approaches to inform its
             employees of their roles and responsibilities during an emergency, such outreach
             has been ineffective according to employee responses to the OIG questionnaire.
             Basically, there were seven drills noted in the questionnaire. Of the seven drills,
             only the fire drill, which is an evacuation drill, was performed with any degree of
             regularity (i.e., 3.53 times per year on average); no other drill was reported as
             occurring more than 0.08 times per year on average.




12 .   OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006


                                                 UNCLASSIFIED
                                       UNCLASSIFIED



    In addition, when queried about specific guidance related to an emergency, the
majority of respondents indicated that they were unaware of the guidance. More
specifically, 52 percent responded that they did not know what to do when a
shelter-in-place is invoked, and 51 percent did not know the designated location for
a shelter-in-place. Moreover, BBG employees reported via the OIG questionnaire
rarely participating in a shelter-in-place exercise for their primary workplace-the
average number of times per year was 0.03. Yet drills and exercises play a valuable
role in preparing for and assessing emergency readiness.

     Both the Cohen and Switzer Buildings still lacked critical equipment, such as
fire sprinklers, smoke detectors, and alarms, or if installed, such equipment was in
several instances inoperable. Specifically, OIG found the following in the Cohen
and Switzer Buildings, as shown in Table 3.

  Table 3: Emergency Preparedness Weaknesses Noted at BBG’s Washington 

  Facilities 

 COHEN BUILDING                          SWITZER BUILDING
 x Inoperable public address system with an             x No public address system.
    intercom hanging from the wall.
                                                         x An outdated fire alarm system that failed
 x Inoperable escalator blocked off. Officials             during an OIG observed drill on
    explained that parts for the escalator were no          October 13, 2005.
    longer available.
                                                         x No marked evacuation routes.
 x Fire sprinklers and smoke detectors were not
    throughout the building (i.e. majority of main       x In operable fire sprinklers and smoke
    floor and major corridors)                              detectors.

 x No emergency evacuation routes or signs
    posted.
Source: OIG analysis.


    BBG facilities located in Washington, DC, are buildings of historical signifi-
cance. GSA building management said that because of the age of the facilities, the
buildings are not required to have sprinklers, but if renovated, sprinkler systems
have to be included in the renovations. When discussing the emergency prepared-
ness issues of the buildings, such as fire sprinklers and smoke alarms, IBB officials
responded that these issues belong with GSA. GSA officials noted that they were
responsible for the building, but the BBG officials were responsible for the Occu-
pant Emergency Program and plans for these buildings.

    GSA plans to install new fire sprinklers, smoke detectors, and public address
systems in both the Cohen and Switzer Buildings. These improvements should take
about four years to complete. Thus, in the interim, BBG should consider other



OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006   13 .

                                       UNCLASSIFIED
                                               UNCLASSIFIED




             measures used by another federal agency to assist during an emergency evacuation.
             For example, placing signs at doors at the floor level to denote exits, placing fluo-
             rescent tape and arrows to walls at a level six inches from the floor will guide
             victims in smoked-filled halls to safety. According to 62 percent of the employees
             responding to OIG's questionnaire, evacuation routes were not clearly marked.
             OIG suggests that implementing these measures would assist BBG occupants
             during an emergency.

             Phone Tree

                 An employee phone tree is a listing of phone numbers with instructions for
             who will call whom in the event of an emergency. It can also be used as a tool to
             account for all employees after an evacuation. However, 55 percent of BBG
             employees responding to the questionnaire indicated that their division did not
             have an up-to-date emergency phone tree. Moreover, 64 percent responded that
             they did not know how to use an emergency phone tree.

             Buddy System

                 Only two percent of the respondents indicated that they were individuals with
             special needs,6 and the majority of them reported apprising their supervisor of this
             fact. However, none of them indicated any knowledge of arrangements, such as
             the establishment of a buddy system, to assist them in an emergency. Every
             agency's occupant emergency plan should have a component that addresses the
             concerns of employees who may need assistance during an emergency. One
             practical step to assist individuals with disabilities is to establish a buddy system,
             which should be fully integrated into the agency occupant emergency plan.




             6
                 Executive Order 13347 - Individuals with Disabilities in Emergency Preparedness, July 22, 2004.



14 .   OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006


                                               UNCLASSIFIED
                                       UNCLASSIFIED



Conclusions

    BBG's occupant emergency plan did not include all critical elements or comply
with federal regulations. In fact, BBG did not have an emergency plan for the
Switzer Building. The current plan for the Cohen Building did not identify the
members of the occupant emergency team or include provisions for individuals
with disabilities. BBG also did not routinely discuss the emergency plans with new
employees. These problems were borne out by the results of the questionnaire.
The majority of BBG employees self-reported that they were unaware of the
proper procedures to employ in the event of an emergency.

    Furthermore, the inoperable public address system and an outdated fire alarm
system that failed during an observed drill, along with the resultant lack of timely
and orderly evacuation, demonstrate the importance of effective and clear commu-
nication networks to notify employees of the extent and magnitude of an emer-
gency. The ultimate measure of BBG's readiness in an emergency is the manner in
which it responds to an actual event. Thus, OIG is making the following recom-
mendations.


   Recommendation 2: OIG recommends that the Broadcasting Board of
   Governors, International Broadcasting Bureau immediately develop, imple-
   ment, and maintain an emergency action plan for the occupants of the Switzer
   Building.


    In its comments on the draft report, BBG responded that it has put in place an
Emergency Action Plan for employees of the Switzer Building. In addition, BBG
has created a Command Center within the building and equipped it with radios,
emergency kits, assigned corridor monitors, and auxiliary lighting.


   Recommendation 3: OIG recommends that the Broadcasting Board of
   Governors, International Broadcasting Bureau update its emergency action
   plan to include pertinent elements as outlined in Titles 29 and 41 of the Code
   of Federal Regulations and General Services Administration guidelines for
   occupant emergency plans.


    BBG officials stated that they will update their emergency action plan to
conform with the original template for Occupant Emergency Plans, as outlined in
29 and 41 CFR and GSA guidelines.



OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006   15 .

                                       UNCLASSIFIED
                                              UNCLASSIFIED




                 Recommendation 4: OIG recommends that the Broadcasting Board of
                 Governors, International Broadcasting Bureau review the emergency action
                 plan, phone trees, and the buddy system with each employee covered by the
                 plan when the plan is developed or when the employee is assigned initially to
                 a facility and conduct periodic drills, including sheltering-in-place, as required
                 under federal guidance.


                 BBG concurred with recommendation 4, with the exception of the reference to
             "phone trees." BBG officials indicated in their response to the draft that "phone
             trees" is a Continuity of Operations Plan (COOP) requirement and does not apply
             in this instance.

                 OIG acknowledges BBG's response and that it is an essential COOP require-
             ment. However, 29 CFR § 1910.38(c) requires that an accounting of employees be
             performed after an evacuation. Therefore, OIG continues to believe in the utility
             of recommendation 4 in its entirety.


                 Recommendation 5: OIG recommends that the Broadcasting Board of
                 Governors, International Broadcasting Bureau continue to communicate with
                 the General Services Administration regarding GSA's installation and mainte-
                 nance of critical safety mechanisms, such as public address systems, sprin-
                 klers, and alarms with distinctive signal for either a building evacuation or
                 shelter-in-place.


                 In their response to the draft report, BBG officials suggested modifying the
             wording of this recommendation to reflect the GSA's, rather than the BBG's
             authority to install critical safety mechanisms and the ongoing, positive communi-
             cations between BBG and GSA regarding those mechanisms. In addition, BBG
             noted that exit signage installed within the building meets current building stan-
             dards for fire stairwell and exit signage. In preparing this final report, OIG reexam-
             ined the wording of this recommendation, as suggested, and made adjustments
             accordingly.




16 .   OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006


                                              UNCLASSIFIED
                                       UNCLASSIFIED





                          RECOMMENDATIONS


Recommendation 1: OIG recommends that the Broadcasting Board of Gover-
  nors, International Broadcasting Bureau, Office of Administration revise the
  Manual of Operations and Administration Part IV, Section 470 and specifically
  include the requirements of Homeland Security Presidential Directive/HSPD-5,
  including the submission of a plan to adopt and implement the National Inci-
  dent Management System and participate in the National Response Plan.

Recommendation 2: OIG recommends that the Broadcasting Board of Gover-
  nors, International Broadcasting Bureau immediately develop, implement, and
  maintain an emergency action plan for the occupants of the Switzer Building.

Recommendation 3: OIG recommends that the Broadcasting Board of Gover-
  nors, International Broadcasting Bureau update its emergency action plan to in-
  clude pertinent elements as outlined in Titles 29 and 41 of the Code of Federal
  Regulations and General Services Administration guidelines for occupant emer-
  gency plans.

Recommendation 4: OIG recommends that the Broadcasting Board of Gover-
  nors, International Broadcasting Bureau review the emergency action plan,
  phone trees, and the buddy system with each employee covered by the plan
  when the plan is developed or when the employee is assigned initially to a facil-
  ity and conduct periodic drills, including sheltering-in-place, as required under
  federal guidance.

Recommendation 5: OIG recommends that the Broadcasting Board of Gover-
  nors, International Broadcasting Bureau continue to communicate with the Gen-
  eral Services Administration regarding GSA's installation and maintenance of
  critical safety mechanisms, such as public address systems, sprinklers, and
  alarms with distinctive signal for either a building evacuation or shelter-in-place.




OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006   17 .

                                       UNCLASSIFIED
                                              UNCLASSIFIED





18 .   OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006


                                              UNCLASSIFIED
                                       UNCLASSIFIED





                                ABBREVIATIONS


BBG                                   Broadcasting Board of Governors
DHS                                   Department of Homeland Security
GSA                                   General Services Administration
HSPD                                  Homeland Security Presidential Directive
IBB                                   International Broadcasting Bureau
MOA                                   Manual of Operations and Administration
NRP                                   National Response Plan
NIMS                                  National Incident Management System
OIG                                   Office of Inspector General




OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006   19 .

                                       UNCLASSIFIED
                                              UNCLASSIFIED





20 .   OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006


                                              UNCLASSIFIED
                                        UNCLASSIFIED





                                      APPENDIX A


                       Methodology and Results of
                  OIG Emergency Preparedness Questionnaire
    Methodology

    On the basis of information OIG obtained from BBG officials, a review of
BBG guidance, and federal guidelines on emergency preparedness, OIG developed
a questionnaire to be completed by occupants of the Cohen and Switzer Buildings
only. OIG collected information on BBG personnel and contractors' opinions
regarding the information they have received about what to do in an emergency.

    OIG received 324 responses from the 1,649 occupants, for an overall response
rate of 20 percent, with 94 percent of the respondents' primary workplace being
the Cohen Building. The majority of the respondents were government employees
(90%) who have worked in either the Cohen or Switzer Buildings for over 12 years.

     Table 1 shows the details of the survey procedure:

        Table 1: Sample Size and Response Rate by Stratum
                                                                                  Response
         Stratum                                  Universe       Responses          Rate
         Occupants whose primary                   1,605            306             19%
         workplace is the Cohen building
         Occupants whose primary                      44              18             41%
         workplace is the Switzer building
         Total                                      1,649            324
         Source: OIG (Sept.13-Oct. 19, 2005).


--------------------------------------------
Notes: (1) Responses to the questions are expressed in percentages unless indicated otherwise.
       (2) Percentages may not add to 100 owing to rounding; additionally, the number of responses to
           each question was not identical because respondents did not always answer all questions.
       (3) An asterisk (*) indicates that responses such as “Don’t know” were filtered from the data for
           clarity of the analysis and presentation. By eliminating these responses from the analysis of
           question 11, for example, only respondents actually providing assessments of the guidance
           provided by the emergency action plan were included in the evaluation of the plan.




OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006   21 .

                                        UNCLASSIFIED
                                              UNCLASSIFIED



                  Results of OIG's Questionnaire

             Q1 Please provide your Division/Office symbol.

                                  95% responded to this question.

             Q2 Please provide your primary workplace. (Check one.)

                  [ 94%] Wilbur J. Cohen Building

                  [ 6%] Mary E. Switzer Building

                  [ 0%] Other (Please Specify.) __________________


             Q3 About how many years has this building been your primary workplace?
                (Round your answer up to the nearest whole year; enter zero if less than
                six months.)

                  Responses averaged 12.16 years

             Q4 Please provide your employment status within the BBG organization. (Check
                one.)

                  [   90%]   Government Employee

                  [    7%]   Contractor

                  [    3%]   Purchase Order Vendor (POV)

                  [    0%]   Personal Services Contract/Agreement (PSC/PSA)

                  [    0%]   Other (Please Specify.) ___________________


             Q5 Are there other tenants in your building besides BBG?

                  [ 98%] Yes

                  [ 3%] No

                  [ * ] Don't know


             Q6 Are you aware of the BBG's Occupant Emergency Program?

                  [ 47%] Yes ------------------------> Continue

                  [ 53%] No ------------------------> Go to Q8





22 .   OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006


                                              UNCLASSIFIED
                                       UNCLASSIFIED




Q7 How would you rate the BBG's Occupant Emergency Program? (Check
   one; select "Don't know" only if you are not familiar enough with the
   Program to render a judgment.)

    [ 5%] More than adequate
    [ 63%] Generally adequate
    [ 22%] Of marginal or borderline adequacy
    [ 6%] Inadequate
    [ 5%] Very Inadequate
    [ * ] Don't know

Q8 Are you aware of or have you read the Emergency Action Plan for you
   primary workplace?

    [ 48%] Yes ------------------------------------> Continue
    [ 52%] No ------------------------------------> Go to Q12

Q9 Within the first month of your employment at your primary workplace,
   were you briefed on the Emergency Action Plan?

    [ 13%] Yes --------------------------------------> Continue
    [ 87%] No --------------------------------------> Go to Q12
    [ * ] Don't know/can't recall --------------> Go to Q12

Q10 How would you rate the briefing you received on the Emergency Action
    Plan for your primary workplace? (Check one.)

    [   21%] More than adequate
    [   50%] Generally adequate
    [   29%] Of marginal or borderline adequacy
    [    0%] Inadequate
    [    0%] Very Inadequate
    [    * ] Don't know/can't recall




OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006   23 .

                                       UNCLASSIFIED
                                              UNCLASSIFIED



             Q11 For your primary workplace, how would you rate the guidance provided by
                 the Emergency Action Plan for a ... (Check one box in each row; select
                 "Don't know" only if you are not familiar enough to render a judg-
                 ment.)
                                                         Of marginal
                                     More than Generally     or                 Very    Don’t
                                     adequate adequate borderline Inadequate inadequate know
                                                          adequacy
             medical emergency?         6%       75%         6%       6%         6%       *
             Rescue (mechanical         7%       53%        20%       7%        13%       *
             or other entrapment)?
             fire?                     25%       56%         6%       6%         6%       *
             bomb threat?              20%       67%         7%       7%         0%       *
             bomb explosion?           21%       43%        29%       7%         0%       *
             suspicious package?       13%       73%         7%       7%         0%       *
             hazardous substance       14%       50%        29%       7%         0%       *
             (spill, leak)?
             chemical incident?        14%       36%        29%      21%         0%       *
             biological incident?      14%       36%        29%      21%         0%       *
             radiological incident?    15%       39%        31%      15%         0%       *
             natural disaster (i.e.,
             hurricane, tornado,       13%       67%        13%       7%         0%       *
             flood, earthquake)?
             terrorist attack?         13%       60%        13%      13%         0%       *
             civil disorder (i.e.,
             hostage takeover or        7%       57%        29%       7%         0%       *
             physical threat)?
             armed attack?             17%       50%         8%      25%         0%       *
             workplace violence?       15%       54%         8%      23%         0%       *
             other? (Please              ~        ~          ~         ~          ~       *
             specify.) _________


             Q12 Do you have a specific role or duties to perform (such as, Floor Monitor/
                 Warden, Handicapped Monitor, etc.) in the event of an emergency?

                [ 4%] Yes ------------------------> Continue
                [ 96%] No ------------------------> Go to Q15
             Q13 Please provide in the space below your specific role, duties, title, etc. with
                  respect to an emergency.

                       All persons answering yes to Q12 responded to this question.


24 .   OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006


                                              UNCLASSIFIED
                                       UNCLASSIFIED



Q14 Did you receive any training to prepare you for your role, duties, etc., with
   respect to an emergency?

    [ 60%] Yes
    [ 40%] No

Q15 Are the evacuation routes clearly posted on the walls of your workplace?

    [ 38%] Yes
    [ 62%] No
    [ * ] Don't know

Q16 Do you know what to do when a shelter-in-place is invoked?

    [ 48%] Yes
    [ 52%] No

Q17 Do you know the designated location for shelter-in-place in your primary
    workplace?

    [ 49%] Yes
    [ 51%] No

Q18 During the time that this building has been your primary workplace, about
    how many times per year have you participated in ... (Fill in each box; place
    a zero in the box if you have never participated in that type of drill).

    fire drills?                                                    [Avg   3.53]
    shelter-in-place drills?                                        [Avg   0.03]
    chemical or biological exposure drills?                         [Avg   0.01]
    hostage takeover drills?                                        [Avg   0.00]
    physical threats drills?                                        [Avg   0.07]
    natural disaster drills?                                        [Avg   0.02]
    terrorist drills?                                               [Avg   0.08]
    other? (Please specify type of drill.)                          [Avg   0.03]

Q19 Does your Division/Office have an up-to-date emergency phone tree?

    [ 45%] Yes
    [ 55%] No
    [ * ] Don't know/can't recall




OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006   25 .

                                       UNCLASSIFIED
                                              UNCLASSIFIED



             Q20 Do you know how to use an emergency phone tree?

                  [ 36%] Yes
                  [ 64%] No

             Q21 Do you know who the Handicapped Monitor is for your primary workplace?

                  [ 4%] Yes
                  [ 96%] No

             Q22 Are you a person with special needs?

                  [ 2%] Yes ------------------------> Continue
                  [ 98%] No ------------------------> Go to Q25

             Q23 Have you notified your supervisor/manager of your special needs?

                  [ 71%] Yes ------------------------> Continue
                  [ 29%] No ------------------------> Go to Q24

             Q24 Have arrangements been established to assist you in the event of an emer-
             gency (i.e., Buddy System)?

                  [ 0%] Yes ------------------------> Go to Q26
                  [ 100%] No ------------------------> Go to Q26

             Q25 Although you are not a person with special needs, are you nonetheless aware
             of ...

                                                                                            Yes                 No
                       people with special needs in your office?                            [ ~ ]               [ ~ ]

                       procedures in place for people with special needs?                   [ ~ ]               [ ~ ]

                       Note: A tilde (~) indicates that this question was answered very infrequently;
                       therefore, the results expressed in percentages or otherwise were not sufficiently
                       meaningful to be reported.

             Q26 Please use the space below to continue or elaborate on any answer or to
                 provide any additional information that you think is important or pertinent.

                       21% of the respondents provided comments.



26 .   OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006


                                              UNCLASSIFIED
                                          UNCLASSIFIED





                                       APPENDIX B


                BNO \I)C"'...T' ...... BO.\NI) OF     (~O\'FR.'OK..'"
                I   'rll~n "'T\~      or \'1 ERIC \




                                                  ~larch    28.   2006




      r1u: Illlm,raolc Ilo\\ard J ..... rongarJ
     In,;p,,,'i,:!l,r l;cncrJI
     {IS D.... panIlK·1ll 'JfStat",

     lh:ar :'\Ir. I'mngarJ:

      I his is in re,;pon:><: to ~our kiter JatO;"(! februar~ ~7. ~~. regJrdlng tht: Ollicc oflm.pcclOr
     lien..·ralt OIG) dral! lIls!X"'Cti...n repon tilkd ··Audit of Fmcrgt:nc~ Pr..·paredn....ss Jt th.::
     \\ ;I~hington ;"ktropolit:1I1 Facilities oflhe Hroadcastin¥ Board ...!"(iO\cmol"'>:· Rt:pon ~o.
     AUO Sf-On-XX. dmed I·cbruar~ 2006.

     rhe Broadcasting Board nfGo\ernors (BBG) has re\'iewed the abO\ t: listed UIG repon and
     pro\il.ks its comments 10 address Rccommendations I through 5 as noted on the enclosure

     We Ihank you lor Ihe opponunit) to respond 10 the repon. If you ha\ e any questions. please f~1
     frcc to contact :'\ls. Carol F. Baker. Director. Office of AdminiSlTation. or :'\fr. Slephen S. Smith.
     Asso\:inte Director lor ~Ianagemem at         c:w:n
                                                      203-4588.




                                                           Kenneth Y Tomlinson
                                                           Chainman

     I-nclosurt:: A.. St:Hc:d




OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006   27 .

                                          UNCLASSIFIED
                                              UNCLASSIFIED





                                                                                                   LnclusuTc


                                                BBG Responsc 10 lhe OIG Drafl RqlOTl
                                 "Audit of Emergency PreIJ:m:dness utlhe Washington Melropolitan
                                         F:lcilili~'s of Ihe Bro:.lile:lsting Ooard of GO\ ernors"
                                                      Report l\umher AUD/SI-Ilfl-XX
                                                               Fdlru:1I1 2006



                            01(; Recummentl:Hion I: OIG rrClIlIlnll'ntls lhalthl' Ilroatln~sling BOll rtl of
                            (;on'rnors.lntcrnalionlll Brmldcasting Uun·au. Oml'e of Atlministration rr,'i~e lhe
                            ,\laIHmlllfOperations anti Admini;itration, Part IV, Section ·PO, and specifically
                            include lhf requirements nf Hum~'I:lntl Sl'curit)' Presidential Ilireclh e/HSPD-5.
                            includinll; the suhmission or a plan 10 lltl0lll :lntl implcmrnt the i\"luion:lllncidenl
                            Management S)'slrm antlilarlieipate in dlf National Response Plan.

                     BBG Rcspon\e: llJt.o Broadcasling Brord or (io\cmors [BRCi Il'OOCUn;: \\ ilh Rl'Commendation I
                     regarding the update of the ~lanu;.lI of Opcmliulls :mtl f\dministr.lIioli (\'IOA). Pan IV. Section
                     470. The fo,'IOA is being updatl-d as time permits. and will include the n:quircments or Ilomeland
                     SC{;urity Presidential Directi\"en~SPD-5. including the submission of a plan to ;)dopt and
                     implemel1llhe Nationillincidem Management System and participate in the National Response
                     Plan.


                            DIG Recommendation 2; DIG reromml'ntls that the [lroadcasling Board or
                            Governors. Intern:nional Broadcasting Bureau immedialdy de\'flop, implfmenl,
                            and maintain an emngene)' action Illan for the occupants or Ihe S\\ ilzer Building.

                     BBG Response; To safeguard our personnel. BBG pUI in place an Emergency Action Plan for
                     our employees and workspace severnl months ilgO. and the employees havl: copies of this plan.
                     We created our own Command Center for our employees in the Switzer Building. with radios.
                     emergent} kilS. assigned corridor monitors. and allxiliary lighting.


                            DIG Recommfndation 3: OIG recommends that thf Ilroadc:lSling Board or
                            Gonrnors. Inlernational Uroatlcasting Bureau ulldale its emergl'ney action ph," to
                            includc pertinent elements as aullined in Tilles 29 and -II orthe Code of Federal
                            Regulations lind General Sen'iees All minislration guidelines for uceupa nl
                            cmergene:y [ilans.

                     BOG Rt'~Qon~e: The BBG will update the enwT'ecncy action pl:m to eonfoml to lhe original
                     template for Occupant Emergency Pl:InS (OEPs). as outlined in Tille 29 and 41 of the Code of
                     Federal Regulations and GeneT\ll Sen iees AdminiSlration (GSA).




28 .   OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006


                                              UNCLASSIFIED
                                          UNCLASSIFIED





          DIG Recommendation 4: OIG recommends lhat the Broadnsting Board of
          Governors, lnlern:uional Bro:adcasling Bureau re\'iew the emergenC)' action plan.
          phone t~('s, and the budd}' system with t-.u:h emplo~ ec co\ eret! by the plan ,\ ht'n
          Ihe plan is den'lopt'd or when the cmplo~·ee is assi:;ncd initially to a facilil~' and
          conduct periodic drills, including shelterin~·in·lllacc. as recluired under federal
          guidance.

   BBe; Respnnsc: The BI~G eom:urs \\i1h this requin::mrnt \Iilh one I::>icrlltion: lhe reference to
  ··phone lrees·· is a Continuit} (If OpcrJlions Plan (COOP) n.::4uircmclJl (nol ()rp). and docs nOI
  appl} in Ihis instanct.'. \\ lth n.::l,!aru \I,) the OI;P. it has been disscminalt'll \\idel} and is on the
  OOG "C'bsite. When Ihe nl·\\ OEP is compleled. the BBG \\111 ensure all employees an.: familiar
  \\ ilh it

  Also. thr BBG has condUClt-<t UI least one planned lire drill per ~ear. and \l.e conducted our lirst
  Shdterinl,!·ln-Place (SIP) drill earlier this) car. Our plans arc to conduct r\ acualion and SI P
  drills quarterly.


          Ole: Recommendation 5: OIG recommends that the Bro:lde:lsling Board of
          Governors, International Broadcasting Bureau, continue 10 work with the General
          Scn'ices Administra.tion to ensure that tbe critical saref)' mechanisms, such as public
          address systems. sprinklers, and alarms "ith distinctive signal for either a building
          l·"acuation or shelter-in-place. :lre installed and operational. Additionally.
          e"acuations signage should be posttd 10 assist occupants during an e\'aeuation when
          eorridon :.Ire filled with smoke.

  BBG Re~Qonse: The BBG suggeSlS modifying the wording in this recommend[)lion to reflect
  lhe GSA's . mlher than the B8G's authority to ensure lhe installation and operation of critical
  salety mechanisms. and the ongoing. positive communications between lhe BBG and the GSA
  regarding Ihose mechanisms. As discussed in the Emergenc)' Preparedness c;..il conference,
  BBG suggests that thr reconmlcndation address the need for cOOlinuing those communications,
  and nol imply that BBG has the authorit) or IhC' responsibility to "ensure" thC' desired rC'Sult. We
  therefore suggest that the wording of the recommendation be' modified to rt.'eommend that the'
  8BG/IDB continue 10 communicate \\ith the General SC'r\ icC's Administration re~arding GSA's
  installation and maintC'n.1nce of crilical safety mechanisms. such as public address systems. and
  alarms wilh a distincti\ e signal for either a building e\ acualion or shelter-in-place. Sprinkler and
  voice systems are now being installed wilhin the Cohen Building under a GSA COlUmet.

  In llddilion. regarding the wording in Ihis recommendation. the BBG suggests removing the
  requiremenl to post exil signage. as il is not our responsibility to do so. Even so. exit signage
  Ihat has been installed within the building. meets current building slandards for fire stairwell and
  exit signage.




OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006   29 .

                                          UNCLASSIFIED
                                               UNCLASSIFIED





                    The BBU Ilould like to point out that comrary to the comment in Table 3 of the OIG report, the
                    Switzer Building lire alarm system (which remains the responsibility of GSA) did not fail during
                    the observed drill, As was explain~-d to the auditors at the timc. a GSA technician inadvcrtemly
                    shut off the alarms in that portion of the building when initiating the drill. The system was
                    subsequent!} dlf..'Cked and another fire drill W35 sucttSsfully accomplished two \\eeks later.

                    Although the Switler Building docs not hnve 11 public nddrcss systl'm, this is being installed as <l
                    part of GSA's r,"novation projecl IlOW underway, Evacuation routes are marked within the
                    Switzer Building. per the 'alional Fire Code (~FC). \\ilh the appropriately installed EXIT
                    signagl:. lIlcluding emc:r~ency pllwer backup. Smoke detectors an: instalkd and \\orking within
                    the clc\'alors and olhcr strtlh:g.il,; places within the S\\itzeT Building. The rCI\O\ation projl.-ct
                    undcrl\~IY includes lhe installation of smoke detection systems as \\ell as sprinklers throughout
                    the enlire building.




30 .   OIG Report No. AUD/SI-06-24, Audit of Emergency Preparedness at the Wash. Metropol. Facilities of the BBG, May 2006


                                               UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs
         and resources hurts everyone.

       Call the Office of Inspector General
                    HOTLINE
                   202-647-3320
                or 1-800-409-9926
         or e-mail oighotline@state.gov
      to report illegal or wasteful activities.

              You may also write to
           Office of Inspector General
            U.S. Department of State
              Post Office Box 9778
              Arlington, VA 22219
           Please visit our Web site at:
               http://oig.state.gov

        Cables to the Inspector General
       should be slugged “OIG Channel”
           to ensure confidentiality.
